Audit of USAID/Haiti’s Hurricane Georges
Recovery Program

Audit Report No. 1-521-01-005-P


May 15, 2001




           Regional Inspector General / San Salvador
U.S. Agency for
 I NTERNATIONAL
  D EVELOPMENT

 RIG/San Salvador



May 15, 2001

MEMORANDUM
FOR:                USAID/Haiti, Director, Lewis Lucke

FROM:               Acting Regional Inspector General/San Salvador,
                    Steven H. Bernstein

SUBJECT:            Audit of USAID/Haiti’s Hurricane Georges Recovery Program
                    (Report No. 1-521-01-005-P)


This memorandum is our report on the subject audit. In finalizing the report, we
considered your comments on the draft report. Your comments are included in their
entirety in Appendix II.

This report contains one recommendation for your action and no management
decision has been reached. We request that you provide us written notice within 30
days of any additional information related to actions planned or taken to implement
this recommendation. In addition, please comment on the potential monetary
savings from implementing the recommendation.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                      1
Table of   Summary of Results                                                      3
Contents
           Background                                                              3

           Audit Objectives                                                        4

           Audit Findings                                                          4

           Are USAID/Haiti’s disaster reconstruction
           activities on schedule to achieve planned outputs?                      4

                  Winrock International—Schools                                    5

                  Winrock International—Technical Assistance to Farmers            5

                  Florida Association of Voluntary Agencies for
                  Caribbean Action (FAVA/CA)                                       6

                  United States Army Corps of Engineers                            6

                  Has USAID/Haiti implemented an adequate
                  monitoring system for its disaster reconstruction activities?    7

                  Planning and Approval                                            7

                  Implementation and Oversight                                     7

                  Monitoring and Evaluation                                        8

                  Management Comments and Our Evaluation                           8


           Appendix I - Scope and Methodology                                      9


           Appendix II - Management Comments                                      11


           Appendix III – Hurricane Georges Recovery Program Activities           12




                                                                                       2
Summary of   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/Haiti’s disaster
             reconstruction activities, known as the Hurricane Georges Recovery Program
             (HGRP), are on schedule to achieve planned outputs and whether it has
             implemented an adequate monitoring system for the HGRP (see page 4).

             We found that all but 4 of the 31 disaster reconstruction activities were on schedule
             to achieve planned outputs. These four activities were three months or more behind
             schedule for various reasons. In addition, one of the four, the United States Army
             Corps of Engineers (USACE), will not complete its planned outputs. For the other
             three activities, because project implementers and USAID were confident that, even
             with the current delays, all activities would be completed by the end of the program,
             and our audit work confirmed that their plans and current actions supported this
             belief, we did not make any recommendations to address the delays. On the other
             hand, because it will not finish all planned outputs, we recommend that USAID/
             Haiti de-obligate any USACE funds that will not be expended (see pages 4 - 7).

             We also found that USAID/Haiti had implemented an adequate monitoring system
             for its disaster reconstruction activities (see pages 7 - 8).

             In its comments to the draft audit report, USAID/Haiti stated that it found the
             report useful and agreed with all findings. It also took action to address the
             recommendation, but did not specifically mention its plans to de-obligate funds,
             or how much would be de-obligated. Hence, no management decision has been
             reached on this recommendation (see page 8).



Background   Because of its overwhelming poverty, degraded environment, and lack of
             infrastructure, Haiti is considered a “disaster prone” country. Nearly every year,
             large segments of the population suffer from either prolonged drought, frequent
             floods, or mud slides. In September 1998, Hurricane Georges swept across Haiti
             causing approximately 400 casualties and an estimated $180 million in damages. At
             the same time, economic conditions deteriorated and environmental degradation
             persisted, leaving larger segments of the society unable to cope.

             In May 1999, Congress passed the Emergency Supplemental Appropriations Act,
             creating the Central America and the Caribbean Emergency Disaster Recovery
             Fund, which contained a total of $621 million in reconstruction assistance for
             countries hit by Hurricanes Mitch and Georges, and for Colombia for earthquake
             damages. Haiti received $9.8 million of this.

             With that funding, USAID/Haiti is undertaking the HGRP. Under HGRP,
             USAID/Haiti entered into an $8.4 million cooperative agreement with the Pan
             American Development Fund (PADF) to implement the HGRP both by submitting
             proposals to perform activities itself and reviewing proposals submitted by other
             organizations for activities which, if approved, PADF then oversees. In addition,

                                                                                                     3
                      USAID/Haiti entered into a $500,000 agreement with the USACE to provide related
                      services, including watershed studies and reports thereof. USAID/Haiti used the
                      difference, approximately $900,000, for local engineering fees and for its own
                      internal management costs. As of December 31, 2000, the entire $9.8 million had
                      been obligated and expenditures totaled $5.1 million. Besides the USACE
                      component, there were 30 approved activities being implemented—7 by PADF and
                      23 by other organizations.




Audit Objectives As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
                      Salvador performed this audit to answer the following questions:

                      •   Are USAID/Haiti’s disaster reconstruction activities on schedule to achieve
                          planned outputs?

                      •   Has USAID/Haiti implemented an adequate monitoring system for its disaster
                          reconstruction activities?

                      The audit scope and methodology is presented in Appendix I.




Audit Findings        Are USAID/Haiti’s disaster reconstruction activities on schedule to achieve
                      planned outputs?

                      Most USAID/Haiti’s disaster reconstruction activities are on schedule to achieve
                      planned outputs. However, there are four activities that are significantly—more than
                      three months—behind schedule. One of these will not achieve its planned outputs
                      by the end of the program, September 2001.

                      With the exception of the USACE activities, PADF is overseeing the timelines for
                      the completion of all activities, including its own. The latest planned schedule for
                      completing all 30 approved activities was included in its September 2000 work plan.
                      In its December 31, 2000 quarterly progress report, PADF compared the actual
                      progress for each activity with the planned schedule in its September 2000 work
                      plan. We confirmed the accuracy of this information through audit site visits,
                      interviews with implementers and Mission officials, and a review of project
                      documentation. A table of all activities, including budget amounts by activity and
                      the months that each activity is either ahead or behind schedule, is included in
                      Appendix III. This Appendix also includes information on the USACE program.

                      The four activities that are significantly behind schedule are discussed separately
                      below.



                                                                                                            4
Winrock International—Schools

Winrock International submitted a proposal, which was approved by USAID/Haiti
on June 8, 2000, for the reconstruction of two schools. The planned start and end
dates for this activity were September 18, 2000 and January 30, 2001, respectively.
Winrock’s administrative costs for this activity were being covered under another
USAID-funded activity in Haiti. The funding for this activity was halted by
Congress in early 2000 and resumed at the end of June 2000. Because of this,
Winrock did not begin work until November 2000. Therefore, instead of being 81
percent complete as of December 31, 2000, as planned, they were only 20 percent
complete—or 3 months behind schedule. Nonetheless, it is a small project and
PADF’s engineer is monitoring Winrock’s progress on a monthly basis.
USAID/Haiti, PADF and Winrock are confident that work will be completed by the
end of Winrock’s sub-grant with PADF, June 30, 2001. Our audit work confirmed
this belief, so we are not making any recommendations regarding this activity.

Winrock International—Technical Assistance to Farmers

Under this activity, Winrock is to send 15 volunteer consultants over an
approximately two-year period to support the HGRP. These volunteer consultants
will work with local Haitian organizations on activities relating to food production.
The activity began in January 2000 and is scheduled to be completed by August 31,
2001. As of December 31, 2000, only four volunteer consultants had come to Haiti
to work with local organizations. They were only 36 percent complete instead of the
planned 58 percent—4.5 months behind schedule. While this delay was also caused
by the funding freeze described above under the schools activity, a greater constraint
was the inability of volunteer consultants to gain country clearances from the U.S.
Embassy in Haiti. Since November 2000, the U.S. Embassy in Haiti had routinely
denied country clearance to all temporary visitors due to security concerns in Haiti
surrounding the presidential elections and repercussions thereof. Nonetheless,
beginning in February 2001, country clearances started again for travel to Haiti and
USAID, PADF, and Winrock officials are confident that they will be able to send
the remaining 11 volunteers by the end of August 2001. Winrock had already
revised a new timeframe for implementation that schedules all but 2 volunteers by
June 2001. Therefore, we are not making any recommendations relating to this
activity.

Florida Association of Voluntary Agencies for Caribbean Action (FAVA/CA)

The planned outputs for this activity include sending eight FAVA/CA consultants to
provide technical assistance for disaster preparedness training, identifying partners
in Florida and organizing seminars in the United States. Like the Winrock
International Technical Assistance to Farmers program, this activity had been
delayed because of travel restrictions invoked by the U.S. Embassy/Haiti. In
addition, FAVA/CA consultants could not be spared for travel purposes during
Florida’s 2000 hurricane season. Hence, instead of being 52 percent complete as of
December 31, 2000 as planned, they were only 20 percent complete—over 4 months

                                                                                      5
behind schedule. In talking with USAID, PADF, and FAVA/CA officials, they are
confident that they will be able to complete all activities by the end of August 2001
and FAVA/CA had prepared a revised timeframe that illustrates that goal.
Therefore, we are not making any recommendations relating to this activity.

United States Army Corps of Engineers

In September 1999, USAID entered into an agreement with USACE to provide
support to the HGRP in the form of two watershed studies and other technical
assistance. However, as of March 2001, neither study had been completed. And, in
consultation with USAID/Haiti, USACE is now planning to complete only some of
its originally intended outputs.

More specifically, the main component of the activity was the analysis of two
watersheds. In the agreement with USAID, USACE planned to deliver the report on
one watershed by June 2000 and the second report by December 2000. However,
as of April 2001, neither report had been delivered. The USACE project manager
told us that this was primarily due to delays by its regional office to contract for the
watershed studies. This contracting delay then caused other components to be
setback as well. In addition, some components, such as the preparation of training
manuals, will not be completed at all because of program revisions as agreed to by
both the Mission and USACE.

USACE has performed work in Haiti on the watershed studies, however, the final
reports on these studies are not expected until June 2001—six to twelve months after
they were scheduled to be submitted. New time lines were agreed upon by the
USACE and USAID/Haiti and the Mission received the first draft watershed study
report in April 2001. Therefore, although delayed, USACE will complete all re-
programmed activities by the end of the HGRP. Nonetheless, in light of these
reprogramming decisions, an estimated $36,000 in obligations will not be expended.
Because this money is not needed for its originally intended purposes, we
recommend the following:

        Recommendation No. 1: We recommend that USAID/
        Haiti de-obligate all unexpended funds for United States Army
        Corps of Engineer activities that will not be completed by the
        end of the Hurricane Georges Recovery Program.

Has USAID/Haiti implemented an adequate monitoring system for its
disaster reconstruction activities?

USAID/Haiti implemented an adequate monitoring system for its disaster
reconstruction activities. It had developed an approval and monitoring system
that included continuous reviews and oversight by several staff members of
USAID/Haiti and other organizations. The system is discussed below in three
stages—planning and approval, implementation and oversight, and monitoring
and evaluation.

                                                                                        6
                 Planning and Approval

                 PADF and USAID/Haiti officials reviewed each individual activity proposal.
                 This review consisted, if applicable, of technical reviews by Mission engineering,
                 environment, contracting, financial, and education officials. Any necessary
                 program changes were recommended by PADF and/or USAID and then followed-
                 up on, either before final approval was granted or during activity implementation.
                 In addition, Mission officials ensured that PADF and other implementers adhered
                 to the administrative requirements included in their agreements.

                 Implementation and Oversight

                 Several reviews were made as activities were performed. One we thought
                 particularly effective was a PADF practice of giving one-month advances to
                 organizations each month. At the end of a month, PADF reviewed documentation
                 of costs to assure that they were incurred for appropriate activities. The next
                 advance was not made until PADF was satisfied. At the same time, an audit firm
                 hired by USAID/Haiti performed a concurrent financial statement audit of PADF
                 activities. And both the Mission and PADF performed site visits to activity
                 locations to personally review the work being performed.

                 Monitoring and Evaluation

                 Quarterly progress reports were required and submitted by implementers. There
                 were also regular meetings held with all HGRP implementers and USAID/Haiti.
                 In addition, USAID/Haiti contracted with an independent organization to evaluate
                 the HGRP. This organization was in the process of collecting, analyzing and
                 reporting on the achievement of select HGRP objectives.




Management       In its comments to the draft audit report, USAID/Haiti stated that it found the
Comments and     report useful and agreed with all findings. It also took action to address the
                 recommendation, but did not specifically mention its plans to de-obligate funds,
Our Evaluation   or how much would be de-obligated. Hence, no management decision has been
                 reached on this recommendation.




                                                                                                  7
                                                                                        Appendix I


              Scope
Scope and
Methodology   We audited USAID/Haiti’s HGRP in accordance with generally accepted
              government auditing standards. Although USAID/Washington funded some
              activities being managed under the HGRP in Haiti, such as the U.S. Department of
              Agriculture activities, this audit included only those activities funded by
              USAID/Haiti. Total obligations and expenditures at December 31, 2000, totaled
              $9.8 million and $5.1 million, respectively. We conducted the audit at USAID/Haiti
              and at the offices of HGRP implementers from January 16, 2001 through February
              2, 2001. In addition, we visited several activities that were located throughout Haiti.
              The shaded activities in Appendix III indicate the sites that we visited.

              Under the HGRP, there are several planned outputs to be completed by September
              2001. These outputs include the repair or reconstruction of 24 schools, repairs on 7
              irrigation systems and 5 potable water systems, the construction of 12 kilometers of
              road, 7 soil and water conservation activities, and several technical assistance and
              geographical studies and activities. A list of all activities is included in Appendix
              III. Our review focused on whether the HGRP activities were on schedule to
              achieve their planned outputs and whether USAID/Haiti had implemented an
              adequate monitoring system. In order to determine if an activity was on schedule,
              we used a benchmark of 3 months. If an activity was 3 months or more behind
              schedule at December 31, 2000, then we considered the activity to be “significantly”
              behind schedule.

              Methodology

              To answer the audit objectives, we interviewed responsible officials at USAID/Haiti,
              as well as the PADF and other implementing entities. In addition, we reviewed
              relevant documentation obtained from these organizations.

              To determine whether the HGRP activities were on schedule to achieve planned
              outputs, we reviewed documentation at USAID/Haiti, which included project design
              documents and implementing agreements between parties. These documents
              provided the activities’ outputs and funding. In addition, we reviewed PADF
              progress reports and work plans that showed planned and actual timeframes. We
              confirmed the plans and actual progress by performing site visits (selected
              judgmentally) of 11 of the 31 activities. Since we were satisfied from these site
              visits that PADF was correctly reporting on targeted outputs and accomplishments,
              we relied on its reporting for the remaining activities.

              To determine whether USAID/Haiti had implemented an adequate monitoring
              system for the HGRP, we interviewed USAID/Haiti members of the HGRP special
              objective team to determine what monitoring mechanisms are in place. We then
              reviewed USAID/Haiti files to assess whether the monitoring mechanisms were
              being followed. In addition, in order to obtain reasonable assurance regarding the
              compliance with agreement terms, we judgmentally selected several compliance

                                                                                                    8
                                                                     Appendix I

requirements that were contained in the cooperative agreement with PADF and, by
reviewing the appropriate Mission and PADF files, assessed whether they were
observed.




                                                                                  9
                                                                                                                       Appendix II


Management
Comments
                                                                                                      UNITED STATES GOVERNMENT


                                                                                             memorandum
             DATE:              April 16, 2001

             REPLY TO
             ATTN OF:           USAID/Haiti, Acting Director, Alex Newton

             SUBJECT:           Draft Report on the Audit of USAID/Haiti’s Hurricane Georges Recovery Program

             TO:                RIG/San Salvador, Timothy E. Cox


                        USAID/Haiti appreciates the time and effort that your staff took to conduct the performance audit of USAID/Haiti’s
                        Hurricane Georges Recovery Program. After completing its review of the report, the Mission has no comments to
                        make regarding the substance of the audit findings.

                        Your report has only one recommendation, as follows:

                        “ Recommendation 1: We recommend that USAID/Haiti terminate the agreement with the United States Army Corps of
                        Engineers and de-obligate all unexpended funds that do not support the Hurricane Georges Recovery Program.”

                        USAID/Haiti has taken action to implement RIG’s recommendation. Upon receipt of the draft report, the Mission
                        contacted the U.S. Army Corps of Engineers (USACE). In a letter sent to USACE on April 6, 2001, the Mission
                        requested that USACE reconfirm its ability to complete three activities, in accordance with the recently revised time
                        schedule. If these timelines are strictly adhered to, we feel that these activities would be beneficial to the Hurricane
                        Georges Recovery Program. In that same letter, the Mission requested information on all accrued expenditures to date
                        in order to arrive at a detailed estimate of expenditures for each of the three activities.

                        The Mission intends to terminate the agreement with the U.S. Army Corps after these three currently ongoing activities
                        are completed. These activities include two river basin studies of the Grande Riviere de Jacmel and the Marigot
                        watersheds and a school mitigation activity. The river basin studies support the Hurricane Georges Recovery Program
                        because they will provide valuable flood risk information to the disaster committees of Jacmel and surrounding
                        communities as they develop and refine their emergency action plans. According to a new timeline submitted by
                        USACE on March 8, 2001, the final reports for the river basin studies are due respectively by April 27 and May 25,
                        2001.

                        The schools mitigation studies will provide valuable information on the strength of the schools repaired under the
                        Hurricane Georges Program. A workshop planned for June will inform Haitian architects and engineers about disaster
                        resistant construction and the international building code. The school mitigation activity will end June 30, 2001.

                        We feel strongly that, if the USACE adheres to the timelines, they will deliver a viable, useful series of reports that will
                        contribute to the HGRP. If there is any slippage in the schedule, USAID/Haiti will seek a termination of the PASA, in
                        accordance with the RIG recommendation.

                        USAID/Haiti again expresses its appreciation for the manner in which the audit was conducted and the usefulness of
                        the RIG report.
                                                                                   Appendix III

                   Hurricane Georges Recovery Program Activities1
No.    Implementing         Budget2        Type of Project      Percentage      No. of
       Organization                                                  of         Months
                                                                Completion     Ahead or
                                                                at 12/31/00    (Behind)
                                                                               Schedule
 1    Organization for     $1,239,210   Seed Production           53 percent         (>1)
      the Rehabilitation
      of the
      Environment
 2    Centro                  400,000 Technical Assistance               55           (1)
      International de                for Seed Production
      Agricultura
      Tropical
 3    Winrock                 200,025 Technical Assistance to            36          (4.5)
      International                   Farmers
 4    Centre de               512,197 Training in Disaster               31          (>2)
      Developpement                   Mitigation
      des Ressources
      Humaines
 5    Florida                  48,000 Technical Assistance               20          (>4)
      Association of                  for Disaster Mitigation
      Voluntary
      Agencies for
      Caribbean Action
 6    Pan-American            130,440 Irrigation System                 100          N/A
      Development                     Repair
      Foundation
 7    Pan-American            236,770 Soil & Water                      100          N/A
      Development                     Conservation
      Foundation
 8    Pan-American            152,237 Irrigation System                 100          N/A
      Development                     Repair
      Foundation
 9    Pan-American            440,341 Construction of Road               80          (<1)
      Development
      Foundation
10    Pan-American            155,092 Irrigation System                 100          N/A
      Development                     Repair
      Foundation
11    Catholic Relief         121,822 Soil & Water                       80            >1
      Services                        Conservation
12    Plan International      124,366 Soil & Water                       75             0
                                      Conservation



                                                                                             11
                                                                                Appendix III

No.    Implementing        Budget2      Type of Project      Percentage      No. of
       Organization                                               of         Months
                                                             Completion     Ahead or
                                                             at 12/31/00    (Behind)
                                                                            Schedule
13    Centre Canadien      $116,359 Irrigation System          70 percent           (1)
      d’Etude et de                 Repair
      Coopération
      Internationale
14    Winrock                53,042 Reconstruction/Repairs            20            (3)
      International                 of Schools
15    Catholic Relief        66,000 Soil & Water                      50             0
      Services                      Conservation
16    Cooperative            34,160 Reconstruction/Repairs           100           N/A
      Housing                       of Schools
      Foundation
17    Catholic Relief       112,930 Soil & Water                      25            (1)
      Services                      Conservation
18    Catholic Relief       159,597 Irrigation System                 50            >1
      Services                      Repair
19    Plan International    104,832 Repair of Potable                 15           (<2)
                                    Water System
20    Pan-American           76,052 Soil & Water                      20           (<1)
      Development                   Conservation
      Foundation
21    Pan-American           93,842 Soil & Water                      25            <1
      Development                   Conservation
      Foundation
22    Centre Canadien       100,910 Irrigation System                 50            <1
      d’Etude et de                 Repair
      Coopération
      Internationale
23    Cooperative            36,311 Reconstruction/Repairs           100           N/A
      Housing                       of Schools
      Foundation
24    Cooperative            86,807 Reconstruction/Repairs            40             1
      Housing                       of Schools
      Foundation
25    Cooperative            12,558 Repair of Potable                 15          (1.5)
      Housing                       Water System
      Foundation
26    Cooperative            16,682 Repair of Potable                 15          (1.5)
      Housing                       Water System
      Foundation



                                                                                          12
                                                                                                            Appendix III

    No.    Implementing            Budget2            Type of Project             Percentage           No. of
           Organization                                                                of              Months
                                                                                  Completion          Ahead or
                                                                                  at 12/31/00         (Behind)
                                                                                                      Schedule
    27    Cooperative                 $14,532 Repair of Potable                      15 percent             (<2)
          Housing                             Water System
          Foundation
    28    Cooperative                  12,292 Repair of Potable                                15              (<2)
          Housing                             Water System
          Foundation
    29    Centre Canadien              88,262 Irrigation System                                10                  0
          d’Etude et de                       Repair
          Coopération
          Internationale
    30    Cooperative                  33,778 Reconstruction/Repairs                            0                  0
          Housing                             of Schools
          Foundation
    31    U.S. Army Corps             500,000 Geographical Studies                             27                (6)
          of Engineers                        and Related Technical
                                              Assistance




1
 Activities for which we performed site visits are shaded. For those activities, we confirmed reported progress.
2
 Unless the activity is the only activity that the implementing organization is undertaking for the HGRP, these amounts do
not include administrative or other indirect budgeted amounts.




                                                                                                                             13
